HHS/OIG-Audit--"Review of Pharmacy Acquisition Costs for Drugs Reimbursed
Under the Medicaid Prescription Drug Program of the California Department of Health
Services, (A-06-95-00062)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pharmacy Acquisition Costs for Drugs Reimbursed Under the Medicaid
Prescription Drug Program of the California Department of Health Services," (A-06-95-00062)
May 31, 1996
Complete
Text of Report is available in PDF format (943 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This review was conducted as part of a nationwide audit of pharmacy drug acquisition
costs at the Health Care Financing Administration's request. The objective of the
nationwide review is to develop an estimate of the difference between the actual
acquisition costs of drugs of pharmacies and the average wholesale price (AWP)
used by States in helping establish drug reimbursement amounts. Most States reimburse
pharmacies for Medicaid prescriptions using a formula which generally discounts
the AWP by 10.5 percent. This review was made in 11 States. This final report discloses
results in California. In California the overall estimate of the extent that AWP
exceeded pharmacy purchase invoice prices was 17.5 percent for brand names drugs
and 41.4 percent for generic drugs. We believe that the difference between AWP
and pharmacy acquisition costs as determined by our review are significant enough
to warrant consideration by the State in any evaluation of the drug program. Therefore,
we recommended that the State agency consider the results of our review in determining
any future changes to pharmacy reimbursement for Medicaid drugs in California.
The State concurred and stated they intend to use our report to support a provision
in their Governor's budget proposal to decrease drug ingredient reimbursement.